1

-

*<v

t

y

Ob

IN THE SUPREME COURT OF ALABAMA
May 27, 2021
1200473
Ex parte Raymond Lee Bosarge. PETITION FOR WRIT OF
CERTIORARI TO THE COURT OF CRIMINAL APPEALS (In re:
Raymond Lee Bosarge v. State of Alabama) (Mobile Circuit Court: CC97-3703.64; CC-97-3704.63; Criminal Appeals: CR-19-0737).
ORDER
The Petition for Writ of Certiorari filed by Raymond Lee Bosarge
on March 6, 2021, having been fully considered,
IT IS ORDERED that the Petition is STRICKEN as untimely filed.
See Ala. R. App. P. 2(c) & 39(c)(2).
Witness my hand this 27th day of May, 2021.

Clerk of Court,
Supreme Court of Alabama
FILED
May 27, 2021
9:33 AM
'
Clerk
Supreme Court of Alabama
*cc: D * Scott Mitchell
Hon. Jill Parrish Phillips
Raymond Lee Bosarge
Steven Marshall
Cecil Gordon Brendle, Jr.

\

/

/

RELEASED

'*

/
y

REL: January 29, 2021

JAN 2 9 2021

^

clerk
ALA COURT CRIMINAL APPFAt R

Notice: This unpublished memorandum should not be cited as precedent. See Rule 54, Ala. R. App. P. Rule 54(d)
states, in part, that this memorandum "shall have no precedential value and shall not be cited in arguments or
briefs and shall not be used by any court within this state, except for the purpose of establishing the application
of the doctrine of law of the case, res judicata, collateral estoppel, double jeopardy, or procedural bar."
*

ALABAMA COURT OF CRIMINAL APPEALS
>

CR-19-0737
Raymond Lee Bosarge v. State of Alabama
Appeal, from Mobile Circuit Court CC-97-3703.64; CC-97-3704.63
MEMORANDUM DECISION
WINDOM, Presiding Judge.

1

Raymond Lee Bosarge appeals the circuit court's summary dismissal
of his petition for postconviction relief filed pursuant to Rule 32, Ala. R.
Crim. P., in which he attacked his 1972 convictions for grand larceny and
his resulting sentences of one year and one day in prison.1
'On the standard Rule 32 form, case numbers CC-97-3705.64 and
CC-97-3704.63 are listed, and the circuit court docketed the case under
those case numbers. However, in the supplement to the form, Bosarge
1

1
<*

On January 24, 2020, Bosarge filed a standard Rule 32 form and a
supplement in which he challenged his 1972 convictions for grand larceny.
On March 13, 2020, the State filed a response and a motion to dismiss,
noting that Bosarge's petition had been incorrectly docketed with the
wrong case numbers. In addressing Bosarge's claims challenging his 1972
convictions, ____
the State ^.asserted that Bosarge's claims were
' nonjurisdictionaljclaims and, therefore, were procedurally barred. On
March 16, 2020, the circuit court summarily dismissed Bosarge's petition
for the reasons asserted by the State. On March 31, 2020, the circuit
court, in response to a filing by Bosarge claiming that the petition had
been docketed under the wrong case numbers, issued an order
acknowledging that the pleadings indicated that Bosarge had intended to
file the petition in case numbers corresponding with his 1972 convictions;
however, the circuit court stated:
"As to the Rule 32 Petition in these case[s], the Court finds
that, based on Petitioner's assertion that it was filed in the
wrong case numbers, and based on the content of the
pleadings, the Petition, to the extent it was filed under these
case numbers is DENIED, as filed in error."
(C. 60.) Bosarge filed a motion for reconsideration in which he argued
that the circuit court erred when, on March 16, 2020, it adopted the
//State's proposed order dismissing the petition. This appeal follows
On appeal, instead of reasserting the claims from his petition,
r
Bosarge argues that the circuit court erred in adopting the State's
proposed order. Bosarge claims that the order wras clearly erroneous
because the State treated his filing as a filing under Rule 32, Ala. R. Crim.

clearly challenged his 1972 convictions for grand larceny. The case
numbers listed on the form correspond with Bosarge's 1998 convictions for
first-degree rape and first-degree sexual abuse. The record does not
indicate whether the circuit clerk or Bosarge listed the case numbers on
the form. In filings following his petition, Bosarge requested that the
circuit court docket the petition under the appropriate case numbers.
2

j

P.3 when, he says, Temporary Rule 20 applies to his filing because it was
in effect at the time of his convictions.2
"Alabama courts have consistently held that even when a trial court
adopts verbatim a party's proposed order, .the findings of fact and
conclusions of law are those of the trial court and they may be reversed
only if they are clearly erroneous." McGahee v. State. 885 So. 2d 191,
229-30 (Ala. Crim. App. 2003). "[T]he general rule is that, where a trial
court does in fact adopt the proposed order as its own, deference is owed
to that order in the same measure as any other order of the trial court."
Ex parte Ingram. 51 So. 3d 1119. 1122 (Ala. 2010). Only "<^hen the recgnjH^
before this Cojart clearly establishes that the order signedlby the^trial
court denying^ostconviction relief is not the product of the trial court's
independent judgment" will the circuit court's adoption of the State's
proposed order beheld erroneous. Ex parte Jenkins. 105 So. 3d 1250.
1260 (Ala. 2012).
4JL
Bosarge argues, as he did in his postjudgment motion, that the
adoption of the State's proposed order is erroneous because it improperly
treated his filing as a filing pursuant to Rule 32, Ala. R. Crim. P., and
applied the procedural bars to his claims. According to Bosarge, the
circuit court should have considered his petition under-Rule 20 of the
Alabama Temporary Rules of Criminal Procedure because those rules
were in effect at the time of his convictions. In support of this proposition,
Bosarge cites to Hawkins v. State. 587 So. 2d 1290 (Ala. Crim. App. 1991),
in which this Court held that Rule 20 of the Alabama Temporary Rules of
Procedure, not Rule 32, Ala. R. Crim. P., governed all postconviction
petitions in which the underlying case was commenced by indictment or

a

2Because of the confusion surrounding the case numbers, the record
includes two orders — each containing an adverse ruling to Bosarge's
petition. Because Bosarge's petition clearly challenged his 1972
convictions, and because the circuit court initially dismissed the petition
after addressing claims pertaining to those convictions, the fact that the
petition was docketed incorrectly does not affect this Court's disposition
of this appeal.
3

complaint before January 1, 1991, the effective date of Rule 32.
The holding in Hawkins, which was issued in 1991, was based on
Rule 1.5, Ala. R. Crim. P., which has since been amended. At the time
Hawkins was decided, Rule 1.5, Ala. R. Crim. P., provided that "[t]hese
rules [the Rules of Criminal Procedure] shall govern all criminal
proceedings commenced at or after 12:01 a.m., January 1,_1991."
However, Rule 1.5 was amended effective April 22, 1992, to provide that
;'[t]hese rules shall govern all proceedings without regard to when the
proceeding was commenced:" In addition, Rule 32.4, Ala. R. Crim. P.,
specifically providesithat "[a] proceeding under [Rule 32] displaces all
post-trial remedies except post-trial motions under Rule 24 and appeal."
Therefore, Bosarge's claim that his petition should have been considered
under Rule 20 of the Alabama Temporary Rules of Procedure is without
merit. Because Bosarge's petition was properly considered under Rule 32,
Ala. R. Crim. P., we find no error on'the part of the circuit court in
adopting verbatim the State's proposed order.
\

Accordingly, the judgment of the circuit court is affirmed.
AFFIRMED.
McCool, Cole, and Minor, JJ., concur. Kellum, J., concurs in the
.result.

J

4

B

fP H $

Additional material
from this filing is
available in the
Clerk's Office.

